<html>
<title> - ADVANCING COMMERCIAL WEATHER DATA: COLLABORATIVE EFFORTS TO IMPROVE FORECASTS, PART II</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]












                   ADVANCING COMMERCIAL WEATHER DATA:
                         COLLABORATIVE EFFORTS
                     TO IMPROVE FORECASTS, PART II

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             July 14, 2015

                               __________

                           Serial No. 114-31

                               __________

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






       Available via the World Wide Web: http://science.house.gov







                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-571 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          










              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
                                 ------                                

                      Subcommittee on Environment

                 HON. JIM BRIDENSTINE, Oklahoma, Chair
F. JAMES SENSENBRENNER, JR.          SUZANNE BONAMICI, Oregon
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
RANDY WEBER, Texas                   ALAN GRAYSON, Florida
JOHN MOOLENAAR, Michigan             AMI BERA, California
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
GARY PALMER, Alabama                 EDDIE BERNICE JOHNSON, Texas
RALPH LEE ABRAHAM, Louisiana




















                            C O N T E N T S

                             July 14, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Jim Bridenstine, Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................     9

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Enviorment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    10
    Written Statement............................................    12

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    13
    Written Statement............................................    14

                               Witnesses:

The Honorable Manson Brown, Deputy Administrator, National 
  Oceanic and Atmospheric Administration
    Oral Statement...............................................    15
    Written Statement............................................    17

Discussion.......................................................    30

             Appendix I: Answers to Post-Hearing Questions

The Honorable Manson Brown, Deputy Administrator, National 
  Oceanic and Atmospheric Administration.........................    48

            Appendix II: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    58

 
                   ADVANCING COMMERCIAL WEATHER DATA:
                    COLLABORATIVE EFFORTS TO IMPROVE
                           FORECASTS, PART II

                              ----------                              


                         TUESDAY, JULY 14, 2015

                  House of Representatives,
                Subcommittee on Environment
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Jim Bridenstine 
[Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Bridenstine. The Subcommittee on Environment will 
come to order.
    Without objection, the Chair is authorized to declare 
recess of the Subcommittee at any time.
    Welcome to today's hearing titled ``Advancing Commercial 
Weather Data: Collaborative Efforts to Improve Forecasts, Part 
II.'' I recognize myself for five minutes for an opening 
statement.
    Today we are convening part two of a hearing we held in May 
on how the National Oceanic and Atmospheric Administration, 
NOAA, uses weather data to enhance their forecasting 
capability, and how and where they get that necessary data, and 
how these processes can be improved.
    We have continually heard the word ``robust'' from multiple 
stakeholders when discussing the needs of our nation's 
satellite infrastructure, and I agree. But after hearing these 
perspectives, particularly from our hearing with NOAA in 
February, I believe the correct word for our current satellite 
architecture could be ``fragile.''
    A gap in satellite data availability remains a very real 
threat. NOAA is taking the proper steps to mitigate this, but 
we still may be faced with an unprecedented gap in crucial 
weather data. We know that JPSS-1 has experienced delays and 
cost overruns, and we are now being told it is possible GOES-R 
will experience a slip from its planned March 2016 launch date. 
This underscores the need to augment our space-based observing 
systems by incorporating alternative modes of data collection. 
For instance, a competitive, commercial market for weather data 
could drive innovation, reduce costs, and increase the quantity 
and quality of data.
    Through this Subcommittee's oversight, we learned that NOAA 
does in fact already purchase weather data from commercial 
entities, including lightning data, aircraft observations and 
synthetic aperture imagery for ice detection. Why not space-
based weather data as well?
    I have been encouraged by the forward-looking view of 
Stephen Volz, the head of NOAA NESDIS. He indicated that NOAA 
would be open to buying data from companies prepared to sell 
space-based weather data such as radio occultation and 
hyperspectral soundings. It was through our dialogue that we 
developed a concept for a pilot project to competitively select 
at least one provider of space-based data and test it against 
NOAA's proprietary data. With this pilot project, NOAA will be 
able to determine if the purchased data can be viably used in 
our numerical weather models. This pilot program was included 
in H.R. 1561, the Lucas-Bridenstine Weather Research and 
Forecasting Innovation Act of 2015, which passed the House of 
Representatives unanimously.
    I am grateful to the Environment Subcommittee Ranking 
Member, the gentlelady from Oregon, Ms. Bonamici, for her 
bipartisan efforts. I am also now encouraged by the Senate's 
interest in weather legislation and look forward to 
incorporating their ideas into our bill.
    I am pleased to have NOAA here today to continue the 
discussion of weather data and how a system that integrates 
multiple data sources will look in the future as NOAA evolves 
with the weather enterprise.
    I hope we can have a productive conversation today to help 
inform Congress on the policies and laws in place that guide 
our data-sharing practices. It is my understanding that NOAA 
adheres to the principles of World Meteorological 
Organization's Resolution 40, which states that environmental 
weather data is publically shared internationally. While I 
agree with the intention of this policy, it could also possibly 
have negative effects on the very people NOAA is trying to 
help. It could prevent markets from forming, thwart innovation, 
reduce the quantity of data available, perpetuate the existing 
government monopoly, and cause costs to balloon. In short, this 
policy could work against our ability to predict timely and 
accurate weather events. If our policy requires a product to be 
given away free of charge, the only entity that will produce 
that product is the government.
    In May, we learned that there are a few situations where 
NOAA applies a slightly different policy with success. NOAA 
contracts with some private entities, and the nature of those 
contracts prohibits NOAA from giving the data away for free.
    Further, we learned that not everybody around the world 
follows this policy. For instance, the European Centre for 
Medium-Range Weather Forecasts does not make their model 
outputs available for free. Instead, nongovernment entities 
must purchase their forecasts.
    This is not the case in the rest of the world, where NOAA's 
forecasts are available to all without charge. That leads me to 
believe that our international obligations are much more 
nuanced than the current interpretation. It seems that there 
may be room for NOAA's data policy to be set on a case-by-case 
basis rather than through a blanket policy.
    I look forward to today's hearing and a meaningful 
discussion with today's witness.
    [The prepared statement of Chairman Bridenstine follows:]

           Prepared Statement of Subcommittee on Environment
                        Chairman Jim Bridenstine

    Today we are convening part two of a hearing we held in May on how 
the National Oceanic and Atmospheric Administration, NOAA, uses weather 
data to enhance their forecasting capability, how and where they get 
that necessary data, and how these processes can be improved.
    We have continually heard the word ``robust'' from multiple 
stakeholders when discussing the needs of our nation's satellite 
infrastructure, and I agree. But after hearing these perspectives, 
particularly from our hearing with NOAA in February, I believe the 
correct word for our current satellite architecture is ``fragile.''
    A gap in satellite data availability remains a very real threat. 
NOAA is taking the proper steps to mitigate this, but we still may be 
faced with an unprecedented gap in crucial weather data. We know that 
JPSS-1 has experienced delays and cost overruns, and we are now being 
told it is possible GOES-R will experience a slip from its planned 
March 2016 launch date.
    This underscores the need to augment our space-based observing 
systems by incorporating alternative modes of data collection. For 
instance, a competitive, commercial market for weather data could drive 
innovation, reduce costs and increase the quantity and quality of data.
    Through this Subcommittee's oversight, we learned that NOAA does in 
fact already purchase weather data from commercial entities, including 
lightning data, aircraft observations and synthetic aperture imagery 
for ice detection. Why not space-based weather data as well?
    I have been encouraged by the forward-looking view of Stephen Volz, 
the head of NOAA NESDIS. He indicated that NOAA would be open to buying 
data from companies prepared to sell space-based weather data such as 
radio occultation and hyperspectral soundings. It was through our 
dialogue that we developed a concept for a pilot project to 
competitively select at least one provider of space-based data to test 
it against NOAA's proprietary data. With this pilot project, NOAA will 
be able to determine if the purchased data can be viably used in our 
numerical weather models.
    This pilot program was included in H.R. 1561, the Lucas-Bridenstine 
Weather Research and Forecasting Innovation Act of 2015, which passed 
the House of Representatives unanimously. I am grateful to the 
Environment Subcommittee Ranking Member, the gentlelady from Oregon Ms. 
Bonamici, for her bipartisan efforts. I am also now encouraged by the 
Senate's interest in weather legislation and look forward to 
incorporating their ideas into our bill.
    I am pleased to have NOAA here today to continue the discussion of 
weather data and how a system that integrates multiple data sources 
will look in the future as NOAA evolves with the weather enterprise.
    I hope we can have a productive conversation today to help inform 
Congress on the policies and laws in place that guide our data sharing 
practices. It is my understanding that NOAA adheres to the principles 
of World Meteorological Organization's Resolution 40, which states that 
environmental weather data is publically shared internationally.
    While I agree with the intention of this policy, it could also have 
negative effects on the very people NOAA is trying to help. It could 
prevent markets from forming, thwart innovation, reduce the quantity of 
data available, perpetuate the existing government monopoly and cause 
costs to balloon. In short, this policy could work against our ability 
to predict timely and accurate weather events. If our policy requires a 
product to be given away free of charge, only the government will 
produce the product.
    In May, we learned that there are a few situations where NOAA 
applies a slightly different policy with success. NOAA contracts with 
some private entities and the nature of those contracts prohibits NOAA 
from giving the data away for free.
    Further, we learned that not everybody around the world follows 
this policy. For instance, the European Centre for Medium-Range Weather 
Forecasts does not make their model outputs available for free. 
Instead, nongovernment entities must purchase their forecasts. This is 
not the case in the rest of the world, where NOAA's forecasts are 
available to all without charge.
    That leads me to believe that our international obligations are 
much more nuanced than the current interpretation. It seems that there 
may be room for NOAA's data policy to be set on a case-by-case basis 
rather than through a blanket policy.
    I look forward to today's hearing and a meaningful discussion with 
today's witness. I yield back and recognize the Ranking Member, Ms. 
Bonamici.

    Chairman Bridenstine. I yield back, and recognize the 
Ranking Member, Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you for holding this hearing, and I appreciate the opportunity 
to work with you over the past several months and years on how 
we can improve weather forecasting, which I know is important 
to your constituents, my constituents, and frankly, everyone 
across the country and around the world.
    So welcome to Admiral Brown. I'm glad you are here today to 
discuss NOAA's perspective on the issue of commercial weather 
data, and I look forward to discussing both the benefits and 
challenges associated with advancing the role of the commercial 
sector in providing this critical weather data to our national 
weather enterprise.
    Several weeks ago, we had the opportunity to hear from 
representatives of the weather community. They described the 
positive relationship with NOAA and the relationship that NOAA 
has with numerous private entities in the acquisition of 
commercial weather data. They also described how this data is 
used to supplement global models and forecasts. Finally, they 
emphasized the importance of preserving full and open access to 
core data products that enable the growth of the entire weather 
enterprise, both private and public.
    Existing policies have for the most part allowed for 
unrestricted sharing of data and information with the research 
community, international partners, and commercial entities. 
This unrestricted access to weather data is the foundation of 
the current billion-dollar commercial weather industry, an 
industry that is the envy of the world. In fact, one of the 
witnesses stated that NOAA is the world's gold standard.
    With this praise also came words of caution, caution to 
ensure that existing policies that maintain free and open 
access to essential weather data are not altered, policies that 
allow the scientific community and private sector to drive 
innovation and economic growth, and, most importantly, policies 
that ensure critical weather data remains reliable, and of the 
highest quality, so the lives and livelihoods of millions 
around the world are protected.
    The current government-owned, commercially operated 
structure has served us well; however, even existing 
partnerships with private companies carry risks, things like 
delays in production, launch failures, and cost overruns. This 
is not to say the commercial sector is not ready to take on 
more responsibility in this area, but it does highlight the 
simple truth that space is difficult, and when it comes to 
providing critical observational data--the backbone of our 
numerical weather prediction--we must proceed with care and be 
certain of the path forward.
    As we heard from the panel, a model where the government is 
solely a purchaser and not a provider of weather data presents 
a number of unique challenges and raises important questions 
that must be addressed to preserve the continued stability, 
credibility, and reliability of the nation's weather 
forecasting capabilities. These include: How would NOAA freely 
share the data it purchases from commercial sources? What 
effect do our international obligations have on policy 
considerations for the expanded use of commercial weather data? 
If NOAA maintains its policy of free and unrestricted use of 
data it purchases, will it be forced to purchase data at a 
premium, or serve as an anchor buyer, that will outweigh the 
anticipated cost savings? What data should NOAA purchase from 
the commercial sector and what, if any, data is so essential 
that the government should retain control? These are not simple 
questions with easy answers, but NOAA must consider these, and 
others, as they develop policies and practices for the 
continued purchase and use of commercial data.
    We heard in our first hearing that although there are 
opportunities to advance our current model and thinking, there 
are also serious risks to consider. Congress must not rush to 
change a process that has worked well and provided such great 
benefits, without ensuring those successes can continue.
    The entire weather enterprise, from NOAA to its industry 
partners and talented researchers, share the same goal of 
continually advancing our ability to accurately forecast the 
weather, save lives, and improve our economy in the process.
    I look forward to hearing about the work NOAA is doing to 
identify ways to work more closely with industry to incorporate 
commercial weather data into its models, products, and 
services, and continuing the discussion of how we can advance 
our robust weather industry.
    Thank you again, Mr. Chairman, and again to our witness for 
being here this morning, and I yield back the balance of my 
time.
    [The prepared statement of Ms. Bonamici follows:]

            Prepared Statement of Subcommittee on Oversight
                Minority Ranking Member Suzanne Bonamici

    Thank you, Mr. Chairman, and welcome Vice Admiral Brown. I'm glad 
you are here today to discuss NOAA's perspective on the issue of 
commercial weather data, and I look forward to discussing both the 
benefits and challenges associated with advancing the role of the 
commercial sector in providing this critical weather data to our 
National weather enterprise.
    Several weeks ago, we had the opportunity to hear from 
representatives of the weather community. They described the positive 
relationship NOAA has with numerous private entities in the acquisition 
of commercial weather data. They also described how this data is used 
to supplement global models and forecasts. Finally, they emphasized the 
importance of preserving full and open access to core data products 
that enable the growth of the entire weather enterprise--both private 
and public. Existing policies have--for the most part--allowed for 
unrestricted sharing of data and information with the research 
community, international partners, and commercial entities. This 
unrestricted access to weather data is the foundation of the current 
billion dollar commercial weather industry, an industry that is the 
envy of the world. In fact one of the witnesses stated that ``NOAA is 
the world's gold standard.''
    With this praise also came words of caution. Caution to ensure 
existing policies that maintain free and open access to essential 
weather data are not altered. Policies that allow the scientific 
community and private sector to drive innovation and economic growth, 
and, most importantly, policies that ensure critical weather data 
remains reliable, and of highest quality, so the lives and livelihoods 
of millions around the world are protected.
    The current government-owned, commercially-operated structure has 
served us well; however, even existing partnerships with private 
companies carry risks, things like delays in production, launch 
failures, and cost overruns. This is not to say the commercial sector 
is not ready to take on more responsibility in this area, but it does 
highlight the simple truth that ``space is difficult,'' and when it 
comes to providing critical observational data--the backbone of our 
numerical weather prediction--we must proceed with care and be certain 
of the path forward.
    As we heard from the panel, a model where the government is solely 
a purchaser and not a provider of weather data presents a number of 
unique challenges and raises important questions that must be addressed 
to preserve the continued stability, credibility, and reliability of 
the nation's weather forecasting capabilities. These include:

      How would NOAA freely share the data it purchases from commercial 
sources?

      What effect do our international obligations have on policy 
considerations for the expanded use of commercial weather data?

      If NOAA maintains its policy of free and unrestricted use of data 
it purchases, will it be forced to purchase data at a premium, or serve 
as an anchor buyer, that will outweigh the anticipated cost savings?

      What data should NOAA purchase from the commercial sector and 
what, if any, data is so essential that the government should retain 
control?

    These are not simple questions with easy answers, but NOAA must 
consider these, and others, as they develop policies and practices for 
the continued purchase and use of commercial data.
    We heard in our first hearing that although there are opportunities 
to advance our current model and thinking, there are also serious risks 
to consider. Congress must not rush to change a process that has worked 
so well, and provided such great benefits, without ensuring those 
successes can continue.
    The entire weather enterprise, from NOAA to its industry partners 
and talented researchers, share the same goal of continually advancing 
our ability to accurately forecast the weather, save lives, and improve 
our economy in the process. I look forward to hearing about the work 
NOAA is doing to identify ways to work more closely with industry to 
incorporate commercial weather data into its models, products, and 
services, and continuing the discussion of how we can advance our 
robust weather industry.
    Thank you, Mr. Chairman, and again thank you to our witness for 
being here this morning. I yield back the balance of my time.

    Chairman Bridenstine. I thank the Ranking Member for her 
thoughtful comments.
    Let me introduce our witness. Our witness today is the 
Honorable Manson Brown, Deputy Administrator of the National 
Oceanic and Atmospheric Administration, and Assistant Secretary 
of Commerce for Environmental Observation and Prediction.
    Before joining NOAA, Mr. Brown served in the U.S. Coast 
Guard for 40 years--thank you for your service--where he rose 
to the rank of Vice Admiral. Mr. Brown received his master's 
degree in civil engineering from the University of Illinois at 
Champaign-Urbana and his master's degree in national resources 
strategy from the National Defense University.
    In order to allow time for discussion, Vice Admiral Brown, 
please limit your testimony to five minutes. Your written 
statement will be made a part of the record.
    We have the Chairman here. I hope you forgive me, Vice 
Admiral Brown, but I'd like to recognize the Chairman of the 
full Committee, Mr. Smith, for five minutes.
    Chairman Smith. Thank you, Mr. Chairman, and Admiral, thank 
you for letting me not so much cut into line but come in at the 
end of the line here before you begin your presentation, and 
normally, Mr. Chairman, this goes against all my instincts: 
Never keep an admiral waiting. But I'll be brief.
    And I do thank our witness for being here today to discuss 
a crucial issue that is important to all of us and also to my 
constituents.
    Severe weather routinely affects large portions of the 
United States. This year we already have seen the devastating 
effects of tornados across our country, especially in Texas and 
Oklahoma. My home State of Texas also has seen record-breaking 
flooding that caused widespread damage and loss of many lives 
in my district. These events are stark reminders that we depend 
heavily on the accuracy and timeliness of our weather 
forecasts. Unfortunately, our expertise has slipped in severe-
weather forecasting.
    Also of concern is that the large satellite programs we 
rely on for our forecast data are at risk of not meeting 
crucial schedule commitments. Delayed satellite launches would 
dramatically reduce our ability to predict weather and issue 
accurate and timely forecasts. We must do everything we can to 
save lives and protect property from severe weather events.
    This past May, the House of Representatives passed a bill 
that I cosponsored, H.R. 1561, ``The Weather Research and 
Forecasting Innovation Act of 2015.'' This bill greatly 
improves our severe-weather forecasting capabilities, and I 
thank the gentleman from Oklahoma, our Chairman, Mr. 
Bridenstine, for his involvement with this bill, and Ranking 
Member Bonamici for her cosponsoring this legislation as well.
    This bill prioritizes weather research at the National 
Oceanic and Atmospheric Administration's research agency. It 
prompts NOAA to actively acquire new commercial data and seek 
private-sector weather solutions through a commercial weather 
data pilot project. It also increases forecast warning lead 
times for tornados and hurricanes, and it creates a joint 
technology transfer fund in NOAA's Office of Oceanic and 
Atmospheric Research to help put technologies developed through 
NOAA's weather research into operation.
    In this year's Commerce, Justice, and Science 
Appropriations bill, the House also approved my amendment to 
fully fund these crucial weather-related research activities at 
NOAA. The enhanced prediction of severe weather events is of 
great importance in protecting the public from injury and loss 
of property. It is something that Texans, and people in any 
community recently affected by severe weather, can appreciate.
    It is time for us to bring our weather forecasting systems 
into the 21st century. Mr. Chairman, I look forward to our 
discussion today about how we can continue to support and 
enhance our weather prediction capabilities, and I'll yield 
back.
    [The prepared statement of Chairman Smith follows:]

   Prepared Statement of Committee on Science, Space, and Technology
                        Chairman Lamar S. Smith

    Good Morning and I thank our witness for being here today to 
discuss a crucial issue that is important to all of us and also to my 
constituents. Severe weather routinely affects large portions of the 
United States. This year we already have seen the devastating effects 
of tornados across our country, especially in Texas and Oklahoma. My 
home state of Texas also has seen record breaking flooding that caused 
widespread damage and loss of life in my district.
    These events are stark reminders that we depend heavily on the 
accuracy and timeliness of our weather forecasts. Unfortunately, our 
expertise has slipped in severe weather forecasting. Also of concern is 
that the large satellite programs we rely on for our forecast data are 
at risk of not meeting crucial schedule commitments.
    Delayed satellite launches would dramatically reduce our ability to 
predict weather and issue accurate and timely forecasts. We must do 
everything we can to save lives and protect property from severe 
weather events.
    This past May, the House of Representatives passed a bill that I 
co-sponsored, H.R. 1561, ``The Weather Research and Forecasting 
Innovation Act of 2015.'' This bill greatly improves our severe weather 
forecasting capabilities. I thank the gentleman from Oklahoma, Mr. 
Bridenstine, for his involvement with this bill, and Ranking Member 
Bonamici for co-sponsoring this legislation.
    This bill prioritizes weather research at the National Oceanic and 
Atmospheric Administration's (NOAA's) research agency. It prompts NOAA 
to actively acquire new commercial data and seek private sector weather 
solutions through a commercial weather data pilot project. It also 
increases forecast warning lead times for tornadoes and hurricanes. And 
it creates a joint technology transfer fund in NOAA's Office of Oceanic 
and Atmospheric Research to help put technologies developed through 
NOAA's weather research into operation.
    In this year's Commerce, Justice, and Science Appropriations bill, 
the House also approved my amendment to fully fund these crucial 
weather-related research activities at NOAA. The enhanced prediction of 
severe weather events is of great importance in protecting the public 
from injury and loss of property.
    It is something that Texans, and people in any community recently 
affected by severe weather, can appreciate. It is time for us to bring 
our weather forecasting systems into the 21st century. I look forward 
to our discussion today about how we can continue to support and 
enhance our weather prediction capabilities.

    Chairman Bridenstine. I'd like to thank the Chairman for 
his leadership on these very important issues and his guidance 
on this Committee.
    Admiral Brown, you are now recognized for five minutes for 
an opening statement.

                TESTIMONY OF HON. MANSON BROWN,

                     DEPUTY ADMINISTRATOR,

                      NATIONAL OCEANIC AND

                   ATMOSPHERIC ADMINISTRATION

    Hon. Brown. Thank you, Chairman.
    Before I deliver my oral statement, I'd like to give you a 
brief summary of an operational update that I received this 
morning on the widespread flooding and severe weather which has 
impacted the upper Midwest, Mississippi River Valley, and 
continues to affect the Ohio River Valley and the Central 
Appalachians.
    Heavy rainfall has led to devastating flash flooding, 
especially in Kentucky, where one fatality has been reported 
and others are missing. Conditions warranted the issuance of a 
special flash-flood emergency yesterday. Water rescues continue 
this morning across Kentucky, Virginia, and West Virginia.
    In addition to the flooding, there were 500 preliminary 
reports of damaging winds extending from the Midwest to the 
Central Appalachians yesterday. Obviously, with this ongoing 
event, it's appropriate that we keep those impacted by this 
severe weather in our thoughts and prayers today.
    With that, Mr. Chairman, thank you, Chairman Smith, 
Chairman Bridenstine, Ranking Member Bonamici, Members of the 
Committee, it's a pleasure to be with you today.
    Today, insight and foresight about the state of our planet 
is factored into individual and collective decisions to an 
extraordinary degree from planning our individual day to 
providing for the national defense. NOAA's mission is to 
leverage our ability to understand and predict changes in the 
Earth's environment. We provide environmental intelligence that 
delivers timely, actionable, and reliable information to 
protect citizens, businesses and communities. Our observing 
systems are the final foundation for all we do.
    The weather forecasting system in particular must have an 
assured and uninterrupted flow of high-quality data from these 
systems. An accurate forecast 3 or more days in advance can 
only be made when the entire globe has been measured by both 
satellites and in situ sensors. Since no single entity, no 
government, no university, no private company, no scientist has 
the capacity to do this on their own, a global system of 
systems that seeks to maximize free and open sharing of data 
has developed.
    To give you a sense of how important these cooperative 
arrangements are, NOAA provides only three of the eight primary 
satellites that feed data into the global forecasting system. 
We share United States data freely and openly so that we can 
receive data freely and openly from our international partners. 
This regime is codified in treaty commitments under the World 
Meteorological Organization's Resolution 40, which sets up free 
and unrestricted data sharing amongst participating nations. 
Resolution 40 requires participating nations to share essential 
data without restriction. These basic data and products are the 
ones that support the protection of life and property and the 
wellbeing of all nations.
    The benefit of full, free and open for the United States is 
that by volume, we receive about three times as much 
environmental data for our forecasting models as we provide. 
NOAA does purchase a variety of environmental data using 
competitive procurements, but we do not distribute on a full, 
free and open basis. Because this data is only used for local 
and regional forecasts, this practice is consistent with our 
WMO commitments.
    I would add that over 75 percent of NOAA's satellite budget 
goes out as competitive contracts to the private space and 
technology industry to build instruments, launch satellites, 
and manage ground and data systems. This is over 85 percent of 
the GOES-R and JPSS programs. That number is over 85 percent.
    In addition, NOAA's environmental data and model output 
fuels a vibrant and growing private weather enterprise that 
refines and tailors our information down to individual citizens 
and national sectors such as energy and agriculture. According 
to the University Corporation for Atmospheric Research, the 
private sector is estimated to generate billions of dollars of 
annual revenue, employing thousands of people, and providing a 
rich array of analytical products and tailored services to 
everyone from commodity traders to TV weathercasters. The 
health of this industry is underwritten by this convention of 
full, free and open.
    NOAA recognizes the dynamics of a changing space 
environment driven by such things as an increasing demand for 
more precise environmental intelligence, changing technology, 
that this aggregation of satellite systems, affordability 
issues and changing business models. We're mindful that space 
is expected to become more congested, contested, and 
competitive.
    As a science-based services agency, we maintain a keen 
focus on public safety. For our satellite systems, our desire 
is to preserve an unblinking stream of high-quality scientific 
data that can be assured over the long term. Our current 
satellite programs will help us to do that in a way that 
minimizes gaps and achieves a level of robustness for this 
critical national infrastructure.
    NOAA has and will continue to explore industry's ability to 
contribute to these goals in a way that minimizes risk, 
maximizes assuredness, and upholds the convention of full, free 
and open. In doing so, we seek to uphold the successful model 
which delivers tremendous return on investment for the United 
States, improves our forecasts and the safety of our citizens, 
and supports both a thriving private weather industry and the 
economy as a whole.
    Thank you again for the opportunity to testify. I welcome 
your questions.
    [The prepared statement of Hon. Brown follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Bridenstine. Thank you, Admiral, for your 
testimony. Members are reminded that the Committee rules limit 
questioning to five minutes. The Chair recognizes himself for 
five minutes.
    Admiral, we did a bipartisan weather bill here in the House 
of Representatives not too long ago, and it included a pilot 
project for NOAA to enter into a contract with at least one 
private-sector company to test weather data, to test it 
against, you know--can it be validated and be usable for the 
data assimilation systems, the numerical weather models. I just 
wanted to find out, are you supportive of that effort?
    Hon. Brown. I am supportive of that effort consistent with 
available resources, Chairman. As Dr. Volz testified in 
February, we do want to learn forward with our industry 
partners, and we think radio occultation is a good technology 
to do that with.
    Chairman Bridenstine. That's great. Does NOAA have any 
plans at this time to enter into such a contract to start 
testing that kind of data?
    Hon. Brown. Right now, we do have plans to do that. There 
are several elements to that. The caveat that I mentioned 
before was consistent with available resources. Obviously we 
need budget support to do a technology demonstration.
    The second thing is, I anticipate later this year NOAA will 
release our commercial satellite data policy, which will really 
signal to the industry our interest. As a follow-on to the 
release of that policy, I expect that Dr. Volz will release 
what we're calling his NESDIS procedures, which define the data 
standards that industry will have to meet principally and what 
the architectural requirements of the systems will be.
    Chairman Bridenstine. Do you have a data for when that 
might occur, just out of curiosity?
    Hon. Brown. I don't have a specific date, Chairman. These 
products are still in clearance.
    Chairman Bridenstine. But you would anticipate it would be 
this year?
    Hon. Brown. I am driving towards this year. Very 
aggressively.
    Chairman Bridenstine. Okay. Thank you for that.
    At part one of our hearing in May, I asked former UCAR 
President Dr. Bogdan how difficult it would be to make data 
specifications, as you just mentioned, data specifications for 
GPS radio occultation available to the public. He answered, ``I 
don't see any difficulty from our perspective in making that 
information available.''
    We have a growing commercial sector that is eager to help 
provide data. They are looking to NOAA for answers on how they 
can help, and of course, you've indicated that you're looking 
at providing those specifications, making those available to 
the public, you know, as you mentioned, very aggressively 
before the end of the year. Is that correct? Or your goal would 
be.
    Hon. Brown. The goal is before the end of the year. And 
just one caveat to that, Chairman. As part of Dr. Volz and his 
team development of the draft procedures, he actually had a 
session with industry during the NOAA satellite conference in 
April and talked through the essential elements, if you will, 
of what those data standards would be and what that 
architecture is, and so he is folding the feedback from that 
discussion into those procedures.
    Chairman Bridenstine. That's great to hear.
    Now, was that just kind of like an informative, informal 
briefing or were there negotiations taking place as far as what 
it would cost and what they need to invest and that kind of 
thing?
    Hon. Brown. This was really a public session. It was not 
the government and contractors, if you will, of the negotiating 
setting. This was really a framing of the environment, if you 
will, specifically with regards to the architecture that 
industry will have to plug into during some of this technology 
demonstration.
    Chairman Bridenstine. So as far as the technology 
demonstration and of course, you know, using potentially 
commercial capabilities to argument our numerical weather 
modeling, there's the testing, validation, there's all that 
effort. Is there a point in time when you would foresee the 
ability for NOAA to purchase commercial data as those 
validations have been met?
    Hon. Brown. Not at this point, Chairman, because radio 
occultation specifically is listed as one of those technologies 
on WMO Resolution 40s essential list. What we'd like to do, as 
I mentioned before, is to learn forward. Let's see if we can 
get the technology and the architecture and the feeds right, 
and then there's this whole separate discussion about the 
business arrangements, if you will.
    Chairman Bridenstine. When you say it's on the essentials 
list, what is that? What does that mean? What does that entail?
    Hon. Brown. The World Meteorological Organization's 
Resolution 40 has two types of data. They have what's called 
essential data and they have what they call additional data. 
Essential data is data that is used by all of the global met 
partners to feed global forecasts, and this is a determination 
that's made collaborative between scientists and operators, and 
it is codified under Resolution 40 as what they call Annex 1.
    Chairman Bridenstine. Is commercial aviation data also 
included in that, the essential data?
    Hon. Brown. It is not, and I'm--I really need to defer to 
some of the experts. I can get you a detailed briefing----
    Chairman Bridenstine. Okay.
    Hon. Brown. --on the specifics of what are essential and 
non-essential. Let me answer it this way. We do buy aviation 
data for instrumentation that's on our aircraft during takeoffs 
and landings, but that is data that does not inform the global 
forecasting models. That informs local and regional models, and 
that is the distinction that WMO makes.
    Chairman Bridenstine. And just so you're aware, we had 
testimony before this Committee in February with a panel of 
experts including Dr. Volz was on that panel, and the testimony 
came back to us that that commercial data does feed the global 
initial conditions for creating the numerical weather models or 
for feeding numerical weather models. So just--there might be a 
contradiction here. We probably should look into finding out 
what the----
    Hon. Brown. We'll work through your staff----
    Chairman Bridenstine. Okay.
    Hon. Brown. --to reconcile the difference.
    Chairman Bridenstine. Okay. Thank you for that. I'm out of 
time.
    I recognize the Ranking Member, Ms. Bonamici, for five 
minutes.
    Ms. Bonamici. Thank you, Chair Bridenstine.
    First, I want to follow up on the conversation that you 
were having with Chairman Bridenstine, Admiral Brown. You 
talked about the conference in April to--and my understanding, 
that that was in large part to inform the agency about 
developing a process for assessing commercial solutions. 
There's a statement that Dr. Volz made at the start that it was 
a public discussion between NOAA NESDIS and the emerging 
commercial field about the possibilities for more active 
engagement for providing future measurement capabilities.
    So can you talk a little bit about the stakeholder 
engagement at that conference and at that--through that 
conversation and any additional steps that NOAA is taking to 
hear from stakeholders about the expanded use of the commercial 
weather data?
    Hon. Brown. Ranking Member, NESDIS holds an annual 
satellite conference. I actually was a kickoff speaker for this 
year's production. There were about, as I recall, 600 
participants. We get scientists, we get industry technologists. 
We have a lot of our staff. We get folks from the international 
community. It is really a great opportunity for us to discuss 
and debate the state of NOAA satellite technology and data 
assimilation.
    I really don't want to mischaracterize what occurred at 
that session because I wasn't there, and I would accept at face 
value Dr. Volz's characterization. The way that he described it 
to me, it really was just an opportunity for a conversation 
between NOAA and the industry.
    Ms. Bonamici. Thank you, and I want to get a few more 
questions in. I'm sorry.
    You talked about the release of the commercial data policy 
later this year. Thank you for making that a priority. How have 
stakeholders been involved in that--the crafting of that policy 
and the development? Have you had conversations with the 
private sector, with other stakeholders?
    Hon. Brown. This is really a NOAA policy. We did discuss 
and debate these things with our advisory committee, the 
Industry Trade Advisory Council, if you will. We have not 
specifically shared the elements of that policy with them 
because we're on the cutting edge of policy development. I 
think our judgment is, let's get the policy out there. Let's 
treat it as a bit of a living policy, and based upon the 
response and the feedback that we get, the things like the next 
satellite conference, we will consider adjustments to the 
policy.
    Ms. Bonamici. Terrific. Thank you.
    And as I mentioned in our--at our hearing in May, the 
current model where NOAA maintains and operates a suite of 
observing satellites but then purchases supplemental ad hoc 
data to enhance the forecasting products has worked well, and 
as NOAA continues to explore opportunities to expand its 
procurement of commercial data, we do run the risk of ceding 
critical observational capabilities to the private sector. So 
in your opinion, are there essential observational capabilities 
that should always be operated by the government?
    Hon. Brown. Ranking Member, NOAA is in the public safety 
business at the end of the day. We're responsible to the 
citizens of this great nation, businesses, the communities for 
providing environmental intelligence. I mentioned the term 
``unblinking stream of high-quality data.'' We have to be 
relentless in our pursuit of that. I think through the GOES 
project, through JPSS, we are bringing robustness and 
minimizing gaps to the critical observations that are most 
important to feeding the global forecasting system. I would 
like to keep that our focus.
    I think as we consider the future of commercialization in 
space, we just have to be very thoughtful about the impacts to 
those essential elements.
    Ms. Bonamici. Thank you, and as we look at possible 
scenarios, if there were ever a system where the United States 
exclusively purchases weather data from private companies, what 
would be the implications for these international obligations 
which you mentioned under the WMO Resolution 40 to share data 
freely and openly? What--how would that be managed?
    Hon. Brown. As I've researched this issue and discussed it 
with my experts, you know, we're focused on the data. We're 
really talking about the transaction. Can I conceive 
hypothetically of a way for a government, a nation-state, to 
purchase commercial data on a basis so that they get the 
intellectual property rights and instantly transmit it full, 
free and open to all of their partners? Yes. The problem with 
that is, as I understand it on the industry side, there's no 
business model that supports that. So that's sort of where we 
get stuck.
    Ms. Bonamici. Thank you very much, and my time is expired. 
I yield back. Thank you, Mr. Chairman.
    Chairman Bridenstine. I'd like to thank the gentlelady.
    The gentleman from Alabama is recognized for five minutes.
    Mr. Palmer. Thank you, Mr. Chairman, and thank you, Vice 
Admiral Brown, for testifying.
    I'd like to ask you to clarify something. Is NOAA legally 
bound by the World Meteorological Organization Resolution 40?
    Hon. Brown. Congressman, it's not legal in the sense of 
it's a U.S. statute. The World Meteorological Organization 
commitment is a treaty commitment, and we actually signed a 
treaty back in 1949. Resolution 40 was created much later and 
is an extension of that treaty commitment.
    I think of it more as an international contract, if you 
will, and as I said before, the benefit for us is for every one 
byte of data we put into the system, we get three bytes out.
    Mr. Palmer. If it's a treaty, it's not a cooperative 
agreement. Did the United States ratify that?
    Hon. Brown. It was ratified.
    Mr. Palmer. It was ratified? The WMO Resolution 40 details 
the types of data deemed essential as well what data is agreed 
on for sharing freely. How often is the WMO 40 updated to 
reflect current weather enterprise and landscape?
    Hon. Brown. Congressman, as I mentioned, WMO is sort of a 
recent construct, and to my understanding, there have not been 
really any hard updates to it. What the scientists have found 
is that it actually needed to be expanded. WMO Resolution 40 
spoke only to atmospheric services. They also needed to think 
about sort of the hydrology of the planet, the effect of water, 
tidal surges, flooding. So they actually spun off Resolution 40 
and created something called Resolution 25 to talk about that. 
But the strict answer to your question, it has been a static 
document since it was created.
    Mr. Palmer. And how long ago was that?
    Hon. Brown. I don't specifically recall. I think it was--
I'm recalling from a briefing somewhere in the 1990s but I'll 
ask my staff to check.
    Mr. Palmer. Well, if it's a treaty and this is a 
modification for that, was that brought before Congress? Do you 
know?
    Hon. Brown. I don't believe it was.
    Mr. Palmer. Yet are we obligated to abide by anything out 
of the Resolution 40?
    Hon. Brown. Well, under WMO, and I'm familiar with IMO, we 
ratified the broader agreement. There are a whole bunch of 
subcommittees and instrumentalities that are created under 
that. I don't know the specific rules about how those 
amendments affect the whole.
    Mr. Palmer. Okay, but you said we ratified the broader 
agreement, and you said that was 1949?
    Hon. Brown. We ratified it in 1949. The United States 
became an official signatory in 1949.
    Mr. Palmer. Should it be updated if it's been in place for 
such a long time?
    Hon. Brown. Well, I think Resolution 40 is under the 
purview of those scientists and operators that I talked about, 
and I think we rely on their expert judgment to determine when 
it's appropriate to update.
    I will point out, Congressman, that the United States is a 
leader within the WMO. Certainly, our influence carries some 
weight, but that really is a matter for our U.S. representative 
to the WMO and more broadly the State Department.
    Mr. Palmer. Okay. Let me ask you another question. There's 
a 2012 report from the Department of Justice that noted that 
NOAA employs nearly 150 armed federal agents. Is this really 
necessary to have armed agents working for NOAA?
    Hon. Brown. I am not familiar with that specific report, so 
I'd like to give that to you on background.
    Mr. Palmer. Are you aware that you have armed agent?
    Hon. Brown. I am aware that we have armed agents. If I 
could just leverage my background as a former Coast Guard 
officer, I have done joint operations with enforcement 
officials from the fishery service, and our job is to protect 
American fisheries. That's a dangerous environment. I would not 
be surprised if----
    Mr. Palmer. Does NOAA have a role in that, though? I mean, 
that doesn't make sense. We've got ample law enforcement 
agencies to provide the kind of protection you're talking 
about, I mean, unless there's some threat from missing a 
forecast, and I would think that would be more of a local 
thing, but I don't understand why NOAA needs armed agents.
    Hon. Brown. I would just say generically, Congressman, 
again, I don't know the specifics of this particular issue, but 
I will just tell you, people use the tools of what we used to 
call the use-of-force continuum based upon the threat 
environment. My recent knowledge from Coast Guard experience is 
that the threat of environment probably dictates the need for 
armed officers.
    Mr. Palmer. I would like for you to provide the Committee a 
more detailed explanation for why NOAA needs armed agents if I 
may ask for that?
    Hon. Brown. We'll be pleased to do that, sir.
    Mr. Palmer. Mr. Chairman, my time is expired. I yield back.
    Chairman Bridenstine. The gentleman yields back.
    The gentleman from Illinois, Mr. Foster, is recognized for 
five minutes.
    Mr. Foster. Thank you, Mr. Vice Admiral. Let's see. First a 
big-picture question. How do you balance data acquisition and 
data analysis from a budgetary point of view? You know, is 
there a possibility that there be a much larger bang for the 
buck putting money into supercomputers versus more satellites?
    Hon. Brown. Congressman, you said data analysis and data 
acquisition?
    Mr. Foster. And data acquisition, you know, satellites 
versus supercomputers.
    Hon. Brown. NESDIS is principally in the role of data 
acquisition, you know, they--principally from the satellite 
systems. I assume that's what we're taking about. They're 
responsible for managing the procurements and managing the 
systems that bring that data into the rest of the organization 
for analytical and modeling purposes.
    On the data analysis side, it's a bit of a shared 
responsibility, and Congressman, I'm giving you the generic 
sort of executive view on this.
    NESDIS makes sure that it's high-quality data according to 
the requirements that were set by, say, the National Weather 
Service. That data is ported over through our systems into the 
National Weather Service, and then they start doing a series of 
validation and anomaly detection as they prepare to ingest that 
data into their models. So it's a bit of a shared 
responsibility.
    Mr. Foster. And let's see. Having to--whenever you're 
making a make-versus-buying decision, you need to come up with 
an in-house estimate to compare the contract price with, and so 
do you have plans in place for making that comparison and the 
tools to do the in-house part of that comparison?
    Hon. Brown. I want to just step back a bit, and I'm 
assuming we're talking about commercial satellite data.
    Mr. Foster. Yes.
    Hon. Brown. We're not there yet, Congressman. I think we 
want to learn forward. We want to test the ability of a 
commercial vendor to provide radio occultation data, and once 
we get to that step, I think it's time for us to think through 
the rest of it.
    Mr. Foster. Okay. So----
    Hon. Brown. And do we have that capability resident within 
NOAA? We do, but I would just say in terms of the satellite 
business, NOAA is not a market maker. We leverage heavily our 
relationships with both NASA and the United States Air Force, 
and so we would probably partner with those folks to take a 
look at this as a system to come up with our best judgment.
    Mr. Foster. Okay, because, you know, there have been a 
number of retrospective looks at privatization efforts looking 
at do they actually save money with, I think it's fair to say, 
a rather mixed set of results. So you may want to look 
carefully at those, particularly in cases where the 
privatization has not saved us much money as anticipated, 
understand that there are lessons to be learned and advanced as 
you look down this road.
    Can you say a little bit about, does any of this 
potentially affect archiving of the data? Does that remain a 
unique federal or shared international role here?
    Hon. Brown. Archiving is important because it is the 
context that we use for modeling. It is the context we use for 
simulation exercises. It is the context that scientists use to 
push the boundaries of atmospheric sciences, and also to push 
the boundaries of the capability of future instruments. So we 
had spent a lot of capital to archive. I think a disaggregation 
of essential satellite systems would potentially compromise our 
ability to do that.
    Mr. Foster. Thank you, and I yield back.
    Chairman Bridenstine. The gentleman yields back.
    I'd like to recognize the gentleman from Arkansas, Mr. 
Westerman, for five minutes.
    Mr. Westerman. Thank you, Mr. Chairman.
    Vice Admiral Brown, could you discuss NOAA's public-private 
partnerships with surface-based aviation and space-based data 
providers in the context of proprietary data--we've talked 
about that a little bit here already--and the current licensing 
construct that exists for them?
    Hon. Brown. Yes, sir. Just in general terms, we buy about 
five different categories of data that are on the additional 
list for Resolution 40. We buy aircraft data that I referred to 
before. We buy lightning data that helps us really look at the 
regional and local impacts of severe weather. We buy ocean 
color that helps us with things like harmful algal blooms and 
we buy a couple of other things. But they're all--they're all 
within upholding our commitment to the WMO and Resolution 40, 
and we do buy it on a proprietary basis and generally do not 
redistribute it according to the contracts that we sign.
    Mr. Westerman. So you don't share all the data?
    Hon. Brown. We don't necessarily share all the data.
    Mr. Westerman. What policies and procedures does NOAA have 
in place to facilitate the acquisition and application of 
commercial data to improve operational weather forecasting?
    Hon. Brown. Well, I talked about the process of NESDIS 
building satellites and building the essential data stream into 
the weather service and others. We've got other programs that 
are managed by the National Weather Service to assimilate other 
data sets. If you will recall recently, the First Lady put a 
rain gauge in the Rose Garden of the White House. Someone at 
the White House enters that information into a database that's 
a national database. The National Weather Service uses that 
information to reconcile what the forecasts are telling us, and 
it really reflects actual conditions on the ground.
    Mr. Westerman. And you talked about lightning data. Do you 
believe the longstanding partnership for lightning data has 
signaled long-term interest in the technology and helped 
increase the technology advancement?
    Hon. Brown. I would defer that question to our subject-
matter experts. I'll just tell you that they have conveyed to 
me that lightning data is very useful in developing our insight 
about severe weather and its impacts.
    Mr. Westerman. So in general, do you think that government 
interests can signal the market to increase technological 
advancements and create new markets?
    Hon. Brown. In general, I do, and that's one of the reasons 
why we want to learn forward with this radio occultation tech 
demonstration.
    Mr. Westerman. So does NOAA negotiate with private-sector 
companies it enters into agreements with in regards to the 
sharing of data?
    Hon. Brown. We do, and we try to be as beholding to full, 
free and open as we can because it is international custom, and 
because it obviously leverages the innovation of the scientific 
and academic community.
    Mr. Westerman. And do you believe the current private-
sector partnerships can be used as a model for future weather-
observing systems?
    Hon. Brown. I don't know if I'm ready to translate what we 
do for those data sets on the additional list to the essential 
list. I'm more interested in sort of proof--positively proving 
the technology and the ability of industry to provide that data 
stream, and then as I said before, I think we should learn 
forward from there without compromising all of the benefits 
that we get from full, free and open.
    Mr. Westerman. And for decades, the United States has used 
hosted payloads for a variety of U.S. government missions. Does 
NOAA intend to utilize hosted payloads for its missions?
    Hon. Brown. Yes. We're in consultation with the U.S. Air 
Force to be part of their hosted payload system.
    Mr. Westerman. Would this reduce the increasing cost of 
government-owned, -built, -operated, and -launched satellites?
    Hon. Brown. Congressman, we hope it does. Hosted payloads 
is supposed to be more affordable over time. I'm at the point 
in my learning where I'm still learning about how that actually 
happens. Often it's the launch costs that dictate the overall 
affordability of these satellite programs.
    Mr. Westerman. Thank you, Vice Admiral, and Mr. Chair, I 
yield back.
    Chairman Bridenstine. The gentleman yields back.
    The gentleman from Colorado, Mr. Perlmutter, is recognized 
for five minutes.
    Mr. Perlmutter. Thanks, Mr. Chair, and Admiral, thank you 
for being here and your testimony today.
    I've had an opportunity to kind have been through a number 
of these hearings and meetings concerning our weather data, how 
we acquire it, how we analyze it, similar to what Mr. Foster 
was asking you, and as I was reading WMO 40 and listening to 
your testimony, there's sort of five principles, you know, 
again, looking at it at the executive level for me, you know. 
Does it protect life, does it protect property? So the public 
safety component that you mentioned right at the outset, does 
it advance science, okay? For me, that's a key principle here. 
Does it honor international agreements? Because we have--you 
have contracts out there, some with business, some with other 
countries, whatever it is, and how you thread this needle has 
to honor those agreements. And then finally, does it deliver 
the biggest bang for the buck for the taxpayer.
    So as you look at commercializing and buying commercial 
information, which then goes to your public safety and your 
advancing science reasons to be, you've got to think about that 
biggest bang for the buck, and you are absolutely right when 
you said, you know, business, their objective is to generally--
you know, there may be some altruistic piece to it--generally, 
to get profit for the shareholders.
    You, on the other hand, most public safety and most 
advancement to sciences that you can for the taxpayer, and 
they're different kinds of things but generally--so my question 
to you is, I see this as a contract matter, and I see sort of 
the two words in WMO 40, and you mentioned them, essential and 
additional, and how we construe and interpret those words. So 
can you tell us, because you are buying commercial information 
which respects the intellectual property of the business in 
some instances but in most instances, and I like that too, is 
that there's a free exchange of information. So if you could 
just comment on sort of the contractual side of this thing?
    Hon. Brown. Yes, sir. Thank you, Congressman, for the 
question, and I like your five principles. I may actually 
shamelessly steal those.
    Mr. Perlmutter. You're more than welcome to take them.
    Hon. Brown. You know, and I think underlying this whole 
discussion about contract mechanisms is, the question is, what 
is data. What is essential environmental data? Is it 
intellectual property or is it a public good? And that's really 
the heart of the discussion that we're having within NOAA. We 
think it's a public good. Is there a potential for some sort of 
a hybrid in the future that upholds public good, upholds full, 
free and open yet leverages businesses' ability to provide data 
and preserving its intellectual property rights so that they 
can sell it many times? I don't know. I don't know.
    Mr. Perlmutter. Let me jump in there. So--but I guess what 
I would suggest to you is that you guys investigate this thing 
clearly, because I do think the ability to leverage businesses, 
you know, it's whether you're the owner or the lessor of 
something, okay, and they're leasing to you or licensing to 
you, but that leverage with new ideas or a new secret sauce, 
new intellectual property can lead you to do a better job 
protecting life, do a better job protecting property, and see, 
that's the balancing act, and I know you're doing it. Just 
listening to your testimony, I feel more comfortable about what 
you--how you all are approaching this, but I guess sitting up 
here on this policy panel, I think that you really do need to 
continue to investigate and utilize the business sector where 
you can to leverage the first three--protecting life, 
protecting property, advancing science--and you've got to do 
that with your lawyers in honoring all the agreements you've 
already entered into.
    So if you want to respond to that?
    Hon. Brown. Yes, sir. As we go through this very thoughtful 
discussion, you asked the question, what's really at stake. In 
my mind, there's three important things that potentially are at 
stake. The first one is that three to one return on investment 
for the data that we leverage. The second one is if there is a 
compromised flow of that data, we are going to weaken our 
ability to provide forecasting warning data to our citizens. 
And the third, and this is very unique for countries throughout 
the world, this country has built this multibillion-dollar 
enterprise we call private weather. I think this Committee has 
correspondence from some of the leaders from those folks that 
say really they are leveraged off of full, free and open, and 
so we also have to be thoughtful abut that third piece of it.
    Mr. Perlmutter. Thank you. I yield back.
    Chairman Bridenstine. The gentleman yields back.
    The gentleman from Louisiana, Mr. Abraham, is recognized 
for five minutes.
    Mr. Abraham. Thank you, Mr. Chairman.
    Admiral Brown, thank you for being here. As a guy that 
still flies for the Coast Guard in an auxiliary role now, we 
have a little bit of a common bond, so good to see you, sir.
    Why is NOAA waiting to release standard and specific 
specifications of data to the public? And I'll give you--if 
NOAA has used GPS radio occultation data for years, shouldn't 
that information already be available and ready to share?
    Hon. Brown. Yes, sir. There's two components to that 
question. We are currently ingesting cosmic data, radio 
occultation data, and making that available full, free and 
open, and so we will continue to do that.
    The second part of your question was, sir?
    Mr. Abraham. Well, shouldn't the information be readily 
available already----
    Hon. Brown. Yeah, and that's----
    Mr. Abraham. --using the GPS occultation?
    Hon. Brown. Well, you can provide data to users all over 
the globe without having them understand what the requirements 
for that data were, what are the standards that we use to 
harvest and process and disseminate that data. That's very 
much--and I'm an engineer--a technical specification, and 
that's what we're intending to release pursuant to the release 
of our NOAA commercial satellite data policy are the NESDIS 
procedures that articulate what those data standards are for 
all to see.
    Mr. Abraham. And that's going to be when?
    Hon. Brown. I'm hoping it is later this year. We're working 
aggressively to release both of those documents.
    Mr. Abraham. I'm from Louisiana, and as you're aware, we've 
had some horrific flooding in Louisiana, Oklahoma, that water 
from Oklahoma coming down the Red River, and I think the 
National Weather Service changed the crest of the river 
predictions seven times in 13 days, and it really threw chaos 
into not only our private-sector homes but in the public 
sector, our sheriffs being able to react and do what they 
needed to do on a timely basis. What is the National Weather 
Service and NOAA doing with the Corps to help prevent something 
like that in the future?
    Hon. Brown. Yes, sir. I just met with General Bostick three 
Fridays ago. We were discussing these very issues. Let me put 
this in a broader context. We are in the midst of what we are 
calling evolving the National Weather Service, and a lot of the 
things that we're doing were harvested from two Congressionally 
mandated reports, one from the National Academy of Sciences and 
one from the National Academy of Public Administrators, and one 
of those reports used the bumper sticker ``Second to None.'' 
That is our vision for this evolution. As part of evolving the 
Weather Service, Senator Shelby just recently joined Secretary 
Pritzker down at Alabama to cut the ribbon on the National 
Water Center. That Water Center will bring more precision to 
the way that we analyze water threats to our nation.
    Mr. Abraham. Do you think that'll improve the 
hydrological----
    Hon. Brown. Dramatically, sir. We are working on plans 
internal to NOAA to take our current technology, which gives us 
a basin-level forecast, and neck it all the way down to street-
level forecast.
    Mr. Abraham. Thank you, Mr. Chairman. I yield back.
    Chairman Bridenstine. I thank the gentleman.
    We'll enter into round two since we've still got some 
Members here that might have some questions.
    I'd like to hit on a key point. We had maybe a discrepancy 
here earlier between the testimony received before this 
Committee in February about commercial aircraft data and then 
of course testimony today, and here's one thing that I'd like--
the premise that we got from your written testimony, Annex 1 of 
Resolution 40, WMO 40, has eight subsections that detail the 
types of data being essential and that must be free and 
unrestricted. Subsection 8 specifically addresses satellite 
data products and calls for ``those data and products from 
operational meteorological satellites that agree between WMO 
and satellite operators. These should include data and products 
necessary for operations regarding severe-weather warnings and 
tropical cyclone warnings.'' So that's section 8 which I think 
is clear. I think that can be interpreted in different ways.
    Here's the point, though. Annex 1 of subsection 3--earlier 
you were talking about what data is essential. Annex 1 of 
subsection 3 specifically identifies aircraft data as a 
designated data set that is deemed essential and that must be 
``free and unrestricted.'' And yet at the same time, the NOAA 
policy--on your Web site, there's a list of data--you know, 
data sets that are not free and unrestricted, you know, and 
aircraft data, ACAR's data and our data, that data is delayed 
for 48 hours, and the purpose for that is because the contracts 
that you've entered into with Panasonic and I think Rockwell 
Collins as well, they want to make sure that their data is 
protected because if that data is not protected, if it's 
immediately given to the world for free, then they lose their 
market, and if they lose their market, then there would be no 
data, and I think that's the point that I'd like to make is 
that this data policy is critically important for actually 
creating the markets that drive the innovation that we see from 
whether it's Panasonic or Rockwell Collins that drive the 
competition, the ability to get more data to feed these global 
condition, initial condition models that ultimately help us 
better predict weather. For example, you know, my goal in 
Oklahoma is to be able to predict tornados more timely and 
accurately.
    And there's one thought I'd like to just impart, Admiral, 
and you know, I'm not going to pretend like I've got, you know, 
some words of wisdom for a 40-year admiral from the United 
States Coast Guard, but when I came in Sunday night to come to 
Congress, I was hungry. It was 9:30 at night. I'm hungry, and I 
decided I wanted to get a cheeseburger. Well, at 9:30 at night, 
I was able to get a cheeseburger. Now, if that cheeseburger 
being food, if food was to be declared, you know, a global 
public good and therefore necessary to be given away for free, 
that cheeseburger would not have been available to me. That 
cheeseburger was available because, as Mr. Perlmutter correctly 
identified in his comments, the shareholders of that firm--it 
was McDonald's--the shareholders of that firm, they're 
interested in making a profit, and because there is a profit 
motive, there was that global public good that was able to give 
me nutrition at night.
    Now, I'm now claiming necessarily that McDonald's is the 
best nutrition, but you get my point, that you've got to have 
the market in order to get the products that are necessary for 
that global public good. My concern is, we need to make sure 
that if there is a global public good, that that good gets 
produced, and if we don't have a market, then that good never 
gets produced. So while it may be global and public, if it 
doesn't exist, it can't be utilized, you know, to the advantage 
of people who are seeking that data.
    I've heard you reference the three to one, you know, we get 
three times as much as we give, and I don't doubt that your 
numbers are correct on that, but I would attest is that if we 
maybe change, nuance the data policy for satellites, what we 
have actually done for commercial aircraft data and maybe 
provide a 48-hour delay, that while it could still be three to 
one with what the United States provides compared to what we 
receive, or we provide the one and we receive the three, that 
whole pie would be much bigger than it is now, in other words, 
because we would leverage commercial, we'd have more data, 
better data, cost-competitive data, innovation that we don't 
currently receive, which means the pie gets bigger, which 
provides better ability of NOAA to save lives, to save 
property, which I think is the goal of everybody here.
    The other thing that's important is, you know, I've read 
articles recently indicating that there are--when you think 
about the numerical weather modeling, there are as many as, you 
know, seven or eight companies that do numerical weather 
modeling, and if NOAA is--or the National Weather Service is 
one, then we could cost-share with all of this commercial data 
that might be available. NOAA could be one purchaser of the 
data. In essence, you'd be spreading the cost for the purchase 
of that data among eight different entities that are all 
interested in feeding their numerical weather models.
    So I guess my point in this--and I'm out of time so I'm 
going to not ask you a question but just leave you with the 
idea that there could be a nuanced position where when you look 
at aircraft data from commercial aircraft feeding the global 
initial conditions that ultimately help us predict weather, 
maybe considering a nuanced position for satellite data, GPS 
radio occultation, hyperspectral sounding, these kinds of 
things that the commercial sector is ready, willing and able to 
do just as Panasonic and Rockwell Collins, not to mention all 
of the airlines are ready, willing and able to do, something to 
think about because the goal here is more data, better data, 
and of course, improved capability to detect and predict 
extreme weather events.
    And I'll give you ten seconds if it's okay with the Ranking 
Member.
    Hon. Brown. Thanks, Chairman. We'll take that on board for 
consideration as we learn forward.
    Chairman Bridenstine. Thank you, and I turn it over to the 
Ranking Member, Ms. Bonamici, for five minutes.
    Ms. Bonamici. Thank you, Mr. Chairman, and I just want to 
point out that you have just mentioned feeding, pie and 
cheeseburgers, so I think somebody needs to bring the Chairman 
some lunch.
    So thank you very much, Vice Admiral Brown, for your 
thoughtful testimony and your commitment to NOAA's mission. I 
just want to make, first of all, a point that at our last 
hearing, Dr. Bill Gale cautioned us as we move forward, that we 
really need to be careful to not break what's working well, and 
he talked about a principle known as no degradation of 
services, and with NOAA's commitment and our commitment to 
high-quality services, I just hope that we can add that to the 
list, whether it be to Mr. Perlmutter's list of five or just to 
make sure that we keep that in mind going forward.
    I also wanted to follow up on the discussion about the WMO 
Resolution 40 and suggest that we have further conversations 
about this in the Subcommittee and the Committee. There's been 
suggestions, well, is this a treaty, is it a contract, is it a 
law, but when we're looking at an international agreement, I 
think we can all agree it's an agreement with a number of 
member of countries. There are significant ramifications of 
violating that type of international agreement. So we really 
need to have a follow-up discussion about that and look forward 
to talking with you about that going forward.
    And I also wanted to, you know, talk about in regard to the 
WMO resolution, the importance of continued international 
engagement by NOAA, even outside the WMO. That's really 
critical. I was--I have been constantly impressed in this 
Subcommittee and this discussion as well as in space issues 
that oftentimes these issues defy other global conflicts and 
the importance of international engagement is so critical that 
we set aside other differences and continue that international 
collaboration.
    I also wanted to follow up on, we've been talking a lot 
about satellites. I wanted to just mention and ask about the 
IOOS. As someone who represents a coastal community, the 
Integrated Ocean Observing System is really critical. So if we 
can come back down to Earth for a few minutes and talk about 
the importance of the buoys and the sensors and the coastal 
radars, and are there analogous conversations going on with the 
private sector? Because I know that that is sort of a 
partnership between federal, regional and the private sector, 
so if you could address that important issue? Thank you.
    Hon. Brown. Ranking Member, with regards to IOOS, I just 
addressed the capital--the Congressional Oceans Caucus, Senate 
Oceans Caucus, on this issue. It's 11 regional associations 
sort of fusing intergovernmental, academia, private sector. I 
think it works well. It's clearly a disaggregated form of 
observing, and all of that is batched up and fed into databases 
that help NOAA make predictions about various things. A lot of 
it is port centric. For instance, we had the head of the Marine 
Exchange for the Port of LALB come talk to us about the power 
of the fusion of all of those observing systems and the 
collaboration to talk about the conditions within the port and 
the approaches to the port.
    Your broader question is about relative health of the 
observing systems in situ versus satellite. It's something 
that's a part of my portfolio. I chair something called the 
NOAA Observing Systems Council. Our job within that council is 
to attend to the health. A lot of that is a function of the 
budget obviously. Those in situ measurements are also critical, 
particularly for some of the other things that we do in NOAA, 
and it's the fusion of all of these things from the depths of 
the ocean to the surface of the sun that give us the insight 
that we need to protect America.
    Ms. Bonamici. Thank you very much.
    One more question. Can you talk a little bit about some of 
the possible innovations--you know, we hear about--you 
mentioned the collecting rainwater at the White House, but apps 
on phones--I mean, are there other areas where we could be 
going to really capitalize on the innovative culture and 
society that we have to help strengthen all the data that NOAA 
has, and what are some of the potentials?
    Hon. Brown. I talked about the rainwater gauge in the White 
House. That's a part of the Community Collaborative Rain, Hail 
and Snow Network, and it's called CoCoRaHS. CoCoRaHS is now the 
largest provider of daily precipitation observations in the 
United States, and yesterday there were more than 8,000 
observations that were reported, and as I said before, we 
ingest that data because it gives us real time what's happening 
on the ground, and we can use it to reconcile our forecasts and 
our models.
    The second one is what I'll call--I think it's a great 
innovation. It's called the mPING app. The NOAA National Severe 
Storms Laboratory is collecting public weather reports through 
a free app available for smartphones and mobile devices, and 
mPING starts--stands for Meteorological Phenomena 
Identification Near the Ground, and obviously our sensors don't 
necessarily go all the way to the ground. So this also provides 
supplemental observations for us to get smarter and deeper in 
our insight about what's happening.
    Ms. Bonamici. Terrific, and I see my time has long expired. 
I yield back. Thank you, Mr. Chairman.
    Chairman Bridenstine. The gentlelady yields back.
    The gentleman from Colorado, Mr. Perlmutter, is recognized 
for five minutes.
    Mr. Perlmutter. I have a couple of those apps, and they're 
really cool, so I congratulate you on that.
    The Chairman used the word ``augment'' in his opening and 
in his initial questions to you, and I guess where I'm coming 
from is, I want to see us continue to build out and I would 
hope accelerate our JPSS and our GOES-R and to eliminate 
whatever gaps or chasms might exist. I see the private sector 
as helping you refine this bulk of information that you gather, 
and so, you know, I think it's going to take a little bit of 
everything to really, you know, just almost have instantaneous 
information that helps them deal with tornados, helps us deal 
with fires and floods in Colorado, those kinds of things.
    So today I was very pleased with the step forward I think 
we've taken in the Middle East with the Iranian peace agreement 
and we'll see how that transpires, but we had China and Russia 
and the European community--France, Germany--and Iran 
obviously. In connection with--you said we were a leader on the 
WMO. I mean, how many countries are involved, and do you think 
as a leader in kind of organizing this weather community we 
would have influence on maybe reshaping WMO a little bit?
    Hon. Brown. Congressman, there are 191 members that are 
signatories to the WMO. That includes all of the major 
countries of the world. Obviously, weather is a concern for 
every nation for its citizens. We are a leader. We're admired, 
we're respected. Our Deputy Administrator for the National 
Weather Service, Laura Furgione, is our U.S. representative to 
the WMO. She just came back a month or so ago from two weeks in 
Geneva where diplomats were discussing and debating these 
things. You know, as a world leader, we have to be careful 
about how we express our influence, and as I thought about 
this, if from a scientific basis we legitimately want to 
recommend a change, I think we should do that, but it has to be 
scientifically sound because that list on Resolution 40, Annex 
1, is managed by scientists and operators, and through the 
process of the WMO, we have empowered those folks to have the 
insight necessary to make those judgments. Is there something 
that we could do to influence that list? Yes. I just hope it 
would be for the right reasons.
    Mr. Perlmutter. Well, and I think it will be. I mean, the 
Chairman and the Ranking Member and I have had a chance to meet 
with a lot of--a number of scientists who are also, you know, 
starting their businesses or have developed businesses, and 
they want to--they have a new algorithm or they have a new 
approach to something, and I guess I'm not afraid of taking 
advantage of their--what they believe are steps forward, and I 
don't want NOAA to be nervous about that either, and I don't 
think you are, but I agree with you. It's not just for profit's 
sake that I'm looking for this to happen. This is really coming 
back to those first two things are the public safety aspect of 
your job. You know, I don't want anybody getting--you know, I 
want to minimize the number of people who get flooded and, you 
know, their car goes boom right into the South Platte River. 
You know, we had a bunch of that about a month ago. We had a 
number of people die in floods, you know, in Colorado a month 
ago. You know, forget about what happened in 2013.
    Hon. Brown. So I agree with the Chairman's comments in 
general about nuancing the system. I think we're smart enough, 
creative enough, innovative enough to do that.
    The other thing I would say on a broad term, if you take a 
look at the state of weather over the last 40 years, very 
dramatic scientific and technological advances. I think it's 
going to be that future wave that drives conditions for 
satellites in the future.
    There's one additional caveat that I mentioned in my verbal 
statement that I'm mindful of. I went and joined many of our 
colleagues from DoD, NASA, National Geospatial Agency in Denver 
recently at the Space Symposium, and what the folks on the 
national security side are painting for the future of space is 
something that's congested, contested and competitive. Nation-
states need to be very concerned about their critical 
infrastructure that's up there including those that feed our 
weather systems, and I just think we need to be thoughtful 
about that as we move into the future too.
    Mr. Perlmutter. Thank you, Admiral. I yield back.
    Chairman Bridenstine. The gentleman yields back, and I 
agree with you, congested, contested, competitive, and here's 
what else I will tell you. We deal with this on the Armed 
Services Committee. There are ways to deal with it. 
Disaggregating is one. Taking advantage of commercial would be 
a very quick way to disaggregate and distribute those sensors 
and the distribution of weather data, and of course, we've done 
that in the Department of Defense. We've done that with 
communications. We've done it with imagery, and of course, the 
commercial applications from GPS are quite robust as well. So I 
agree with all that.
    Regarding Mr. Perlmutter's comments on WMO 40, I think 
there is a way where the way we interpret WMO 40 may be 
different than a lot of the international partners that we 
have, and if we could maybe come more in line with where they 
are and at the same time when you mentioned this section 8 or--
what is it--Annex 1, section 8, and then of course Annex 1, 
section 3, which provides information about commercial aircraft 
data, that maybe the way we interpret it might be different 
without having to go to our 91 international partners that are 
signatories to the WMO 40. So just another thought.
    Unless anybody has any more questions, I think this will be 
the end of our hearing.
    I want to just say thank you, Admiral, for being here, and 
thank the Members for their questions. I love the way these 
kinds of things go where they're bipartisan. We're all trying 
to figure out how do we get the best data, the most data to 
feed our numerical weather models and provide a little more 
safety for our citizens.
    The record will remain open for two weeks for additional 
comments and written questions from the Members if you have 
more questions.
    This hearing is adjourned.
    [Whereupon, at 11:16 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by The Hon. Manson Brown


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record



             Prepared statement of Committee Ranking Member
                         Eddie Bernice Johsnon

    Thank you, Mr. Chairman. I'd also like to welcome and thank Vice 
Admiral Brown for appearing before us today.
    This hearing is a necessary follow up to a productive hearing we 
had in May with members of the weather community. I am pleased that we 
will be able to continue the discussion with NOAA today.
    Data gathered by NOAA satellites feed global weather models that 
are critical to protect lives and property through accurate and timely 
weather forecasts and warnings. Americans have always appreciated the 
value of timely and accurate weather forecasts. Now, at a time when 
climate change impacts are being felt by more and more people, the 
importance of NOAA's weather satellites cannot be overstated.
    What we learned from our hearing in May was simple: with respect to 
new sources of commercial data, four things must remain intact: We must 
continue to meet our international obligations; we must preserve the 
ideal of free and open access to weather data; we must ensure the data 
are useful and needed; and we must ensure that data purchased from 
commercial entities do not degrade our ability to make accurate 
forecasts. These are important to ensuring we have an approach that 
provides long-term benefits to this country and the world.
    As I said before, observing the Earth and its changes is a truly 
global enterprise and we all benefit from deep and long-lasting 
international engagement and data sharing. Anything that has the 
potential to harm such arrangements must be dealt with from the 
beginning.
    To that end, I am pleased to learn that NOAA is taking a thoughtful 
approach to expanding their use of commercial weather data, mindful of 
the risks and open to its benefits. I look forward to discussing this 
approach more today, and to be certain, in the coming months and years.
    Thank you and I yield back the balance of my time.

                                 [all]
</pre></body></html>
